Washington, D.C. 20530

December 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Sherman Johnson, Jr. v. United States of America,
S.Ct. No. 20-6260
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on November 2, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on January 8, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6260
JOHNSON, SHERMAN JR.
USA

MICHAEL SCOTT EVANS
LAW OFFICE OF MICHAEL S. EVANS
714 W. OLYMPIC BOULEVARD
SUITE 915
LOS ANGELES, CA 90015
310-545-8192
CRIMINALDF@AOL.COM

